                             SOCIAL SECURITY
                                     October 27, 2008

The Honorable Wayne T. Gilchrest
2245 Rayburn House Office Building
House of Representatives
Washington, D.C. 20515

Dear Mr. Gilchrest:

In a June 22, 2007 letter, you asked that we review issues relating to constituent
concerns at the Dover Hearing Office, including

   1.   requests for excessive and redundant medical evidence;
   2.   unwarranted dismissals;
   3.   improper handling of terminal illness, medically critical, and dire need claims; and
   4.   inappropriate comments at hearings.

To assess these issues, we obtained copies of the allegations, reviewed the Social
Security Administration’s (SSA) processes that address such allegations, obtained
extracts from Agency systems related to the claims and prior allegations, and spoke to
SSA staff at the Headquarters, regional, and hearing office level, as well as claimant
representatives associated with these allegations.

Thank you for bringing your concerns to my attention. My office is committed to
combating fraud, waste, and abuse in SSA’s operations and programs. This report
highlights various facts pertaining to the issues raised in your letter. To ensure SSA is
aware of the information provided to your office, we are forwarding a copy of this report
to the Agency.

If you have any questions concerning this matter, please call me or have your staff
contact Jonathan Lasher, Acting Assistant Inspector General for External Relations, at
(410) 965-7178.

                                                  Sincerely,


                                                  S
                                                  Patrick P. O’Carroll, Jr.
                                                  Inspector General
Enclosure
cc: Michael J. Astrue



            SOCIAL SECURITY ADMINISTRATION           BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

  Customer Service Issues at
  the Dover Hearing Office

         A-12-08-28080




          October 2008
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                Executive Summary
OBJECTIVE

The objective of this review was to address the request of Congressman Wayne T.
Gilchrest regarding claimant complaints of poor customer service and improper handling
of claims at the Dover Hearing Office. Specifically, the Congressman requested
information on complaints related to (1) requests for excessive and redundant medical
evidence; (2) unwarranted dismissals; (3) improper handling of terminal illness,
medically critical, and dire need claims; and (4) inappropriate comments at hearings.

BACKGROUND
To remedy public complaints of alleged unfair treatment at hearing offices, all Social
Security Administration (SSA) claimants have the right to (1) request a review by the
Appeals Council (AC) and/or (2) file an Unfair Treatment Complaint with the Office of
the Chief Administrative Law Judge (OCALJ).

RESULTS OF REVIEW
The Office of Disability Adjudication and Review (ODAR) has been aware of complaints
about unsatisfactory service at the Dover Hearing Office for at least 2 years. In our
review, rather than investigating the merits of each allegation, we focused on the status
of the complaints at ODAR since many of the claims in question had been appealed or
a second request for hearing had been filed and we did not want to interfere with this
process. To address the issue of improper handling of terminal illness, we performed a
comparison of terminal illness claims at the Dover and Baltimore Hearing Offices, both
of which serve the Congressman’s constituents. While our review of the terminal illness
claims did not find a significant variance between the Dover and Baltimore Hearing
Offices, we did find it was taking the Dover Hearing Office more time to process such
claims.

Although not a part of initial communications with SSA, the Congressman’s office sent
ODAR the names and Social Security numbers of 111 constituents with complaints
related to Dover Hearing Office. While SSA was not provided the requisite information
to support a full review of each allegation, we believe ODAR could have been more
proactive, such as providing the Congressman’s office with basic information regarding
the status of each claim. We reviewed the status of these 111 claims and found that
53 had been appealed or a second request for hearing had been filed.

The Congressman’s office also provided us with an additional 49 allegations, and we
found that 39 of the allegations related to medical, credibility and procedural issues,
which would normally be addressed under the AC process. The remaining
10 allegations related to bias or misconduct, which would normally be referred to



Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                       i
OCALJ’s Unfair Treatment Complaint process. We found 43 of the 49 claims had been
appealed or a second request for hearing had been filed. As such, it appeared the
merits of some of the allegations had been or were still being determined.

To address the Congressman’s concerns, ODAR requested a review of a sample of
dispositions at the Dover Hearing Office. This review found that about 96 percent of
dispositions were accurately processed. While the OQP review addressed many of the
types of complaints we cited earlier as medical, credibility and procedural, it would not
necessarily detect instances of administrative law judge misconduct. Such cases may
require a more detailed review of the hearing documents as well as statements from the
claimants and their representatives.

We also found that SSA did not adequately track the Unfair Treatment Complaints and,
as a result, could not determine relevant trends, such as repeated bias complaints
associated with an administrative law judge. Moreover, the complaint process could be
timelier in acknowledging the receipts of complaints. In addition, until recently,
information regarding the complaint process was inaccurate and not always publicized
in hearing offices. The Commissioner and ODAR have stated the Agency is committed
to improving the Unfair Treatment Complaint process and a number of improvements
have occurred or are underway.

CONCLUSIONS
Most of the claims related to the allegations have been reviewed or are still undergoing
additional review by ODAR, indicating the claimants have taken additional actions and
the Agency is reviewing the underlying concerns. However, ODAR needs to ensure all
the claimants’ concerns are appropriately addressed, the Congressman’s concerns are
timely addressed by the AC or the Unfair Treatment Complaint process and the status
of this process is shared with the Congressman’s office. To assist with this process, we
have shared information related to the 49 claims in our possession with ODAR. We
understand that approximately 200 allegations related to the Dover Hearing Office were
awaiting resolution. Moreover, ODAR needs to ensure that continued improvements to
the Unfair Treatment Complaint process allow the Agency to track pending and
completed reviews, timely notify parties about the status of their complaints, and provide
the public with accurate information on how to file a complaint.




Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                      ii
                                                                    Table of Contents
                                                                                                             Page

BACKGROUND ......................................................................................................1

RESULTS OF REVIEW ..........................................................................................4

   RECEIPT OF COMPLAINTS ..............................................................................4

   STATUS OF CONSTITUENT COMPLAINTS .....................................................6

   UNFAIR TREATMENT COMPLAINT PROCESS ...............................................9

CONCLUSIONS....................................................................................................14

APPENDICES
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Workload Statistics for Hearing Offices Serving Congressman
             Gilchrest’s Constituents
APPENDIX D – Unfair Treatment Complaint Process
APPENDIX E – How to File an Unfair Treatment Complaint
APPENDIX F – Congressional Response Process at the Office of Disability Adjudication
             and Review
APPENDIX G – Selected Correspondence Between Congressman Gilchrest and the
             Office of Disability Adjudication and Review
APPENDIX H – Status of 111 Hearing Claims Referred by Congressman Gilchrest’s
             Office
APPENDIX I – Unfair Treatment Complaints Provided by the Office of the Chief
             Administrative Law Judge




Customer Service Issues at the Dover Hearing Office (A-12-08-28080)
                                                                       Background
OBJECTIVE

The objective of this review was to address the request of Congressman Wayne T.
Gilchrest 1 regarding claimant complaints of poor customer service and improper
handling of claims at the Dover Hearing Office. Specifically, the Congressman
requested information on complaints related to (1) requests for excessive and
redundant medical evidence; (2) unwarranted dismissals; (3) improper handling of
terminal illness, medically critical, and dire need claims; and (4) inappropriate comments
at hearings.

BACKGROUND
The Office of Disability Adjudication and Review (ODAR) administers the hearings and
appeals program for the Social Security Administration (SSA). The hearing process
begins after an applicant for benefits is denied at the initial and reconsideration levels.
At the next step in the appeals process, an administrative law judge (ALJ) conducts a
hearing and issues a decision. Claimants who are dissatisfied with an ALJ’s decision
on their cases may request that SSA’s Appeals Council (AC) review the decision. If the
claimant is dissatisfied with the AC action, the claimant may appeal the case to a
Federal district court. When the court remands (or returns) a case to the Commissioner
of Social Security, the remand is sent to the AC. The AC remands the case to an ALJ.

CLAIMANT COMPLAINTS

To remedy complaints of alleged unfair treatment at hearing offices, all SSA claimants
have the right to (1) request a review by the AC and/or (2) file an Unfair Treatment
Complaint with the Office of the Chief Administrative Law Judge (OCALJ) (see
Appendix D).




1
 Congressman Gilchrest represents the First Congressional District of Maryland, which encompasses the
Eastern Shore of Maryland, as well as parts of Anne Arundel, Baltimore and Harford Counties. Four
hearing offices serve Congressman Gilchrest’s constituents in Baltimore, Maryland; Dover, Delaware;
Norfolk, Virginia; and Washington, DC. According to Congressman Gilchrest’s staff, most of the
Congressman’s constituents attend hearings at the Dover, Delaware, office. See Appendix C for general
workload statistics associated with these four hearing offices.


Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                                1
AC Process

ODAR staff informed us that the majority of allegations of unfair treatment are submitted
by claimants or their representatives in connection with a request for an AC review. The
AC process is to be used when a party to the hearing disagrees with the hearing
decision or with the dismissal of the hearing request. 2 The AC will generally review a
case if it determines

     it appears the ALJ abused his/her discretion;
     there is an error of law;
     the ALJ’s actions, findings, or conclusions are not supported by substantial
      evidence;
     there is a broad policy or procedural issue that may affect the general public interest;
      and/or
     new material evidence is submitted, the evidence submitted relates to the period on
      or before the date of the ALJ’s decision, and the AC finds that the ALJ’s actions,
      findings, or conclusion is/are contrary to the weight of the evidence in the records. 3

Under the AC process, when a pending appeal indicates possible improper conduct by
the ALJ, the case is sent to OCALJ for a separate review pertaining to the ALJ.
However, the AC will continue to process the claimant’s appeal based on the merits of
evidence and legal proceedings and make a determination on the allegation as part of
the administrative record in the decision on the case. 4

Public ALJ Misconduct Complaint Process

Since 1992, ODAR has offered a second method to voice complaints about ALJ bias,
misconduct or unfair treatment—the Public ALJ Misconduct Complaint Process. This
complaint procedure does not provide an additional or alternative means of appealing
unfavorable decisions, but it is another method to address any public perception of bias,
or misconduct in the adjudicative process. The public is informed and instructed in
notices posted in hearing offices and on SSA’s website about “How to File an Unfair
Treatment Complaint.” Specifically, the notices state “[SSA] wants to treat fairly and
equally all claimants and their representatives…If you think any ALJ treated you
unfairly, you should tell us about it and ask us to look into it. You can ask even while we
are deciding your claims for benefits.” 5


2
 The claimant is expected to file a Request for Review of Decision/Order (Form HA-520) within 60 days
of the date he/she received the hearing decision or order.
3
 SSA, Online Social Security Handbook, Chapter 20: Determinations and the Administrative Review
Process, Section 2013.6 – When Does the Appeals Council Review a Case?
4
    SSA, Hearings, Appeals and Litigation Law manual (HALLEX) I-3-1-25—Unfair Hearing Allegations.
5
    See Appendix E.


Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                                     2
Written complaints are to be addressed to OCALJ in Falls Church, Virginia. The notice
states that the Agency will inform the sender that OCALJ received the complaint, assign
the issue to someone who has not handled the claim in question, and share the final
results. If the claimant is also filing an appeal with the AC, the AC will look into the
complaint as part of the appeal, and this additional review will be part of the final
decision on the appeal.

In May 2007, the Commissioner published a number of initiatives to eliminate the
hearings backlog, 6 including being more proactive in investigating alleged ALJ
misconduct complaints. In the Summary of Initiatives to Eliminate the SSA Hearings
Backlog, the Commissioner noted

          The process to handle public complaints against ALJs was adopted as
          an interim process in 1992. It was intended as a short-term process
          until the permanent process could be adopted. Fifteen years later, the
          permanent process has still not been adopted. We continue to handle
          public complaints but are working on developing a permanent process
          that results in consistent, timely action.

CONGRESSIONAL INQUIRIES AT HEARING OFFICES

Claimants via their Members of Congress can also inquire on their claims and monitor
ODAR’s processing of their claims. 7 According to ODAR’s policy, 8 hearing offices are
expected to (1) give high priority to congressional inquiries; (2) respond to
congressional inquiries promptly, accurately and courteously; and (3) communicate any
concerns about a particular inquiry to the congressional office that made the inquiry as
well as the Office of the Regional Chief ALJ and OCALJ.

Current policy also provides for some flexibility in how a hearing office responds to a
congressional inquiry. For example, some hearing offices have made arrangements
with congressional staff to send monthly status reports using mutually agreed-upon
modes of responses, for example, sending printouts generated from the Case
Processing and Management System (CPMS) in lieu of letters. The policy notes that
hearing office management should document any such agreements in the hearing
office’s administrative records. 9




6
 Statement of Michael J. Astrue, Commissioner of Social Security, Testimony before the Senate Finance
Committee, May 23, 2007.
7
    See Appendix F for more information on ODAR’s congressional response process.
8
    SSA, HALLEX I-1-6-1.A—Congressional Inquiries at Hearing Offices.
9
    Id.


Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                                 3
                                                            Results of Review
ODAR has been aware of complaints about unsatisfactory service at the Dover Hearing
Office for at least 2 years, and details of some of these cases have been shared with
the Agency. While SSA was not provided the requisite information to support a full
review of each allegation, we believe ODAR could have been more proactive in
providing the Congressman’s office with basic information regarding the status of each
claim. Of the 49 allegations we examined, we found that 80 percent of the complaints
related to issues normally handled by the AC. The remaining 20 percent of the
complaints related to bias or misconduct, which would normally be referred to OCALJ’s
Unfair Treatment Complaint process. In addition, 43 of these 49 claimants had
requested new hearings, submitted their cases to the AC, or were pursuing remedy
through the Federal courts. As such, it appeared the merits of some of the allegations
had been or were still being determined. ODAR requested a review of the dispositions
of the Dover Hearing Office, and this review found that about 96 percent of dispositions
were accurately processed. Our own review of the processing time for terminal illness
claims at the Dover Hearing Office found some delays. We also found that SSA was
not adequately tracking the Unfair Treatment Complaints and, as a result, could not
determine relevant trends, such as repeated bias complaints associated with an ALJ.
Moreover, the complaint process could be timelier in acknowledging the receipts of
complaints. In addition, until recently, public information on the process was inaccurate
and not always available at hearing offices. The Commissioner and ODAR have stated
the Agency is committed to improving the Unfair Treatment Complaint process and a
number of improvements have occurred or are underway.

RECEIPT OF COMPLAINTS
ODAR has been aware of complaints about unsatisfactory service at the Dover Hearing
Office for approximately 2 years (see Figure 1 and Appendix G). We found that
Congressman Gilchrest’s office first notified ODAR of constituent complaints associated
with the Dover Hearing Office in August 2006, citing a number of concerns, such as
procedures for hearing notifications, scheduling delays, the integrity of the hearings
process, response time on inquiries and allegations of retaliation against claimants for
making such inquiries. 10




10
  In our review, rather than investigating the merits of each allegation, we focused on the status of the
complaints at ODAR since many of the claims in question had been appealed or a second request for
hearing had been filed and we did not want to interfere with this process.


Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                                         4
                  Figure 1: Timeline of Correspondence Regarding Issues
                                at the Dover Hearing Office




  August 2006        November 2006       March 2007       December 2007    April 2008 ODAR         April 2008
 Congressman          ODAR w rites    Congressman says     Congressman           w rites       Congressman and
 w rites to SSA     Congressman for      he has 200      sends ODAR 111     Congressman          ODAR meet to
                     name and SSNs        complaints     SSNs and names     committing to a    discuss status of
                                                                          review of a sample     the allegations
                                                                             of decisions


In subsequent letters, SSA addressed some of the higher-level issues but not the
specific allegations. In a November 2006 letter, ODAR noted that “. . . without having
case-specific information (Social Security Number or names), we are not able to provide
a more detailed response.”

In March 2007, Congressman Gilchrest wrote to ODAR noting that the number of
constituent complaints exceeded 200 claims. In December 2007, the Congressman’s
office sent the names and Social Security numbers (SSN) of 111 constituents with
complaints related to the Dover Hearing Office. Although the list contained the
claimant’s name and SSN, the list did not contain specific allegations related to each
claim. As a result, ODAR informed the Congressman that ODAR needed specific
allegations for each claim to investigate the issues.

While we agree that the correspondence sent by the Congressman’s office was not
sufficient to initiate the Unfair Treatment Complaint process, the list provided enough
information for ODAR staff to query their systems to determine the status of these
claims, such as whether appeals had been filed. We performed such an analysis and
found that 53 of these cases had been appealed or a second request for hearing had
been filed as of September 2008 (see Appendix H). The Agency could have shared this
information with the Congressman to demonstrate continued Agency activity with these
claimants. The December 2007 list also contained the names of the claimants’
representatives and the ALJs hearing the cases. ODAR management has stated that
current procedures require that the Agency deal directly with the person making the
complaint (the Congressman) rather than the claimants and their representatives.
Nonetheless, given the continued correspondence between the Congressman and
ODAR, as well as the Commissioner’s statements regarding an improved ALJ complaint
process, we believe ODAR could have been more proactive with these complaints.




Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                                                5
STATUS OF CONSTITUENT COMPLAINTS
Our review of an additional 49 constituent complaints related to the Dover Hearing
Office found that most related to medical, credibility and procedural issues, though
10 alleged bias or misconduct. Most of these cases were still pending and the
claimants had requested new hearings, submitted their cases to the AC, or were
pursuing remedy through the Federal courts. ODAR requested a review of the
dispositions at the Dover Hearing Office to address some of these issues, and the
review found that the Hearing Office had adequate support for its decisions. While our
own review of terminal illness claims did not find a significant variance between the
Dover Hearing Office and another hearing office serving the same constituents, we did
find it was taking the Dover Hearing Office more time to process such claims.

CLASSIFICATION OF COMPLAINTS

We reviewed 49 constituent complaints provided by Congressman Gilchrest’s office to
better understand the type of complaints being filed. 11 All of the complaints were
associated with ALJs at the Dover Hearing Office. We found that the majority of the
complaints related to medical or credibility issues, followed by alleged bias or
misconduct on the part of the ALJ and finally procedural irregularities (see Figure 2).

                           Figure 2: Types of Constituent Complaints
                                          (49 Claims)
                                Procedural
                                  Issues
                                   16%

                          Bias or
                        Misconduct
                          Issues
                           20%


                                                                          Medical or
                                                                          Credibility
                                                                           Issues
                                                                            64%




We classified a case as “medical or credibility issues” where, for example, complaints
related to a questionable disability onset date or an ALJ not considering specific
evidence. We classified a case as “procedural issues” where, for instance, complaints
related to an inappropriate hearing location or an unwarranted dismissal of a case. We



11
     We received 51 complaints from Congressman Gilchrest’s office, but 2 lacked the claimants’ SSNs.


Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                                     6
considered a case to have “bias or misconduct issues” if the allegation related to an
inappropriate statement by the ALJ or improper treatment due to someone’s age or
illness.

We found that 39 complaints, or 80 percent, related to medical, credibility and
procedural issues and could normally be addressed through the AC process. The
remaining 10 complaints, or 20 percent, related to bias or misconduct and would be
best suited for the Unfair Treatment Complaint process. For example, in one case, the
claimant alleged the ALJ “would cut me off” and “yelled” when a witness was
introduced, noting the ALJ “…did not want to hear any things [sic] he had to say, and
continually interrupted his testimony as well.” However, we later reviewed the digital
recording associated with this hearing and found no evidence that the ALJ had yelled at
or been rude to the claimant.

We also spoke to AC staff concerning the allegations and were told that the medical,
credibility and procedural complaints were common reasons for an appeal. However,
the Administrative Appeals Judge we spoke to said that the allegations of bias or
misconduct we shared were not common. These cases included alleged discrimination
against a person under age 50 and misconduct by an ALJ who was rude to the
claimant. She said these are not routine allegations in an appeal, and her office would
normally review the matter to determine whether the allegations had merit and advise
OCALJ’s Division of Quality Services (DQS) regarding the findings.

ODAR PROCESSING OF DISABILITY CLAIMS

As of August 2008, 43 of the 49 claimants had taken action on their claims by pursuing
disability benefits through the AC or Federal court process or by filing a new request for
a hearing (see Table 2). 12 In our review of the appeal documentation, we found that
many of the claimants reaffirmed their position while seeking appeal. Hence, many of
the issues identified by Congressman Gilchrest had been or were still being reviewed by
the Agency at the time of our audit. Of the 43 claims undergoing additional review,
11 had favorable new decisions, 8 had unfavorable new decisions, and 24 were still
pending a new decision.
                           Table 2: Status of 49 Constituent Claims
                                     (As of August 2008)
                  No New         Appeals                         2nd          Reopen/
                 Action on       Council       Federal         Hearing        Hearing
     Category      Case          Review      Court Review      Request         Level           Total
Number of            6              25             14              1              3              49
Claims



12
  A claimant representative we interviewed told us that considering it currently takes over 2 years from
the time a claim is filed until a hearing decision is rendered, starting the claims process again from the
beginning is not an efficient option for most disability claimants. However, some claimants choose this
option with the expectation that the disability will be adjudicated differently at the second hearing.


Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                                          7
While the AC can refer cases of potential bias or misconduct to OCALJ as part of its
review, it is possible these claims could have been processed more timely under the
Unfair Treatment Complaint process. In fact, we found that 4 of the 49 complaints were
being treated as Unfair Treatment Complaints. At the time of our review, three of the
complaints were pending and one had been closed as unsupported.

As noted earlier, ODAR could have provided the Congressman the information we
provide in Table 2 to demonstrate that the claims were being reviewed. We provided
our analysis of these 49 claims to ODAR for further review.

OFFICE OF QUALITY PERFORMANCE

As a result of Congressman Gilchrest’s inquiries into the performance of the Dover
Hearing Office, ODAR decided to review a sample of completed cases. The Office of
Quality Performance (OQP) randomly selected 90 favorable and 90 unfavorable
decisions issued by the Dover Hearing Office after September 30, 2006. 13 OQP
examiners found that 86 of the 90 allowance decisions were supported by a
preponderance of the evidence, which represents a 96 percent agreement rate. The
examiners agreed with 48 of 49 denials 14 they reviewed for an agreement rate of
98 percent. For allowances and denials combined, the agreement rate was 96 percent.
The report also noted that the examiners reviewed hearing recordings and all written
decisions and did not uncover any evidence that Dover ALJs were trying to persuade
claimants to either amend their onset date or request a closed period of disability. 15

In the case of the four allowances where there was disagreement, the examiners
concluded that three cases contained decisional errors and the remaining case did not
contain sufficient documentation to support any decision. The one denial with a
disagreement related to insufficient evidence in the record to make any decision.

While the OQP review addressed many of the types of complaints we cited earlier as
medical, credibility and procedural, it would not necessarily detect cases of ALJ
misconduct. Such cases may require a more detailed review of the hearing documents
as well as statements from the claimants and their representatives.



13
  According to OQP’s report methodology, unfavorable decisions with a pending AC request for review or
previously receiving an AC review were excluded from the sample. However, OQP explained that since
these ALJ decisions were evaluated by the AC, an additional review would not be necessary inasmuch as
the AC findings could be used by OCALJ to supplement the OQP findings.
14
  Only 49 of the 90 unfavorable decisions were identified for review, primarily due to appeals pending at
the AC as well as the inability to obtain some paper folders. No other denials were available within the
sampling timeframe.
15
   A closed period of disability occurs when (1) an impairment prevented substantial gainful activity at
least 12 months; (2) prior to the date of adjudication, the individual was no longer disabled; and (3) the
“disability” ceased no earlier than 14 months before the month of filing. See SSA, POMS DI 25510.010
Title II - Closed Period.


Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                                          8
CRITICAL CASES

One of the concerns cited by Congressman Gilchrest involved improper handling of
critical cases at the Dover Hearing Office. 16 ODAR provided us with a list of terminal
illness claims 17 for the four hearing offices serving the Congressman’s constituents.
Terminal illness claims require additional special handling by hearing offices. We
reviewed claims from the Dover and Baltimore Hearing Offices during Fiscal Years (FY)
2004 to 2007 to identify any problematic trends, 18 such as processing delays and/or
individuals dying before their cases were decided. While our review of the terminal
illness claims did not find a significant variance between the Dover and Baltimore
Hearing Offices, we did find it was taking the Dover Hearing Office more time to process
such claims.

For the 13 terminal illness claims at the Dover Hearing Office, we found the average
processing time was 92 days, with the quickest review being 1 day and the longest
review being 544 days. 19 We also found one case where the decision was issued
79 days after the death of the claimant. 20

For the 45 terminal illness claims at the Baltimore Hearing Office, we found the average
processing time was 85 days, with the quickest review being 1 day and the longest
review being 348 days. We also found four cases where the beneficiaries died before
the decisions were issued. These decisions were issued between 69 and 248 days
after the claimants’ deaths. 21

UNFAIR TREATMENT COMPLAINT PROCESS
Our review found that ODAR lacked an automated database to track Unfair Treatment
Complaint allegations and produce management information on trends in ALJ bias or
misconduct. Moreover, the complaint process could be timelier in acknowledging the
receipts of complaints. In addition, until recently, information regarding the complaint

16
  ODAR designates a claim for expedited processing based on one of three criteria: (1) terminal illness,
(2) dire need, and (3) threatening behavior to themselves or others. For more information on Critical
Cases, see HALLEX I-2-1-40 – Critical Cases.
17
  Terminal illness claims include disability claims for any military service personnel, regardless of where
the disability occurred (that is, in the United States or on foreign soil) during military service in the line of
duty October 1, 2001, or later.
18
  We provide additional workload statistics on the four hearing offices serving Congressman Gilchrest’s
constituents in Appendix C.

19
   We calculated the timeliness from the date the case was classified as a terminal illness claim in CPMS
to the date of the decision. As a result, the average processing time for these claims was longer than
92 days.
20
     The median processing time for Dover Hearing Office terminal illness claims was 65 days.
21
     The median processing time for Baltimore Hearing Office terminal illness claims was 37 days.


Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                                                 9
process was inaccurate and not always publicized in hearing offices. The
Commissioner and ODAR have stated the Agency is committed to improving the Unfair
Treatment Complaint process and a number of improvements have been made or are
underway.

UNFAIR TREATMENT COMPLAINT MANAGEMENT INFORMATION

The system to process Unfair Treatment Complaints is complex 22 and involves
coordination and exchange of documents and information between OCALJ, regional
offices 23 and the AC (see Appendix D for a flowchart of the responsibilities of the
entities involved in the Unfair Treatment Complaint process). Currently, the
components exchange paper documents as the complaint moves through the process.

Unfair Treatment Complaints are processed through a number of venues, including the
hearing office, regional office, Congressman’s office, as part of an AC appeal, or directly
to OCALJ. OCALJ’s DQS shares the complaint information with the appropriate
regional office. The regional office investigates the complaint by interviewing the ALJ
involved and reporting the results to DQS. At the end of the investigation, the regional
office submits a recommendation that may involve a personnel action against the ALJ.
The Director of DQS told us that the office usually agrees with the regional office’s
recommended course of action. Regardless of where the complaint was filed or which
office reviewed the complaint, DQS is to be notified of all claims and any
recommendations from either the AC or Regional Chief ALJ.

The Unfair Treatment Complaint process supplements, and is coordinated with, the AC
process. When a pending appeal indicates possible improper conduct by the ALJ, the
AC sends the case to DQS for a separate review. Under the AC process, the AC must
respond to the allegation of bias or an unfair hearing in the AC decision if an allegation
or complaint has been filed with the appeal. However, the AC will continue to process
the claimant’s appeal based on the merits of evidence and legal proceedings and make
a determination responding to the allegation of bias in the AC administrative record or
decision. In addition, misconduct can be identified by the AC on its own without a
complaint as part of the review of the hearing decision.

OCALJ and Region III Data

In our interviews and review of the Unfair Treatment Complaint process, we found that
ODAR did not have a centralized electronic database for tracking and reporting on
these complaints. Instead, ODAR maintains paper documents in a filing cabinet
arranged by hearing office. As a result, ODAR could not provide us with management
information on the number of Unfair Treatment Complaints that were filed, the number

22
   Complaints may be filed at any time in the process up to and including the time the claim is filed at the
Federal court level. Complaints that are mailed by the public to SSA may be received by hearing offices,
field offices, the AC, any regional office, OCALJ or the Office of General Counsel.
23
     By “regional office,” we mean the Office of the Regional Chief ALJ.


Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                                       10
of complaints that had merit and the action taken on such cases, or the trends in
misconduct or bias among its ALJs. While OCALJ staff provided us 20 Unfair
Treatment Complaints received in Calendar Year (CY) 2007 24 relating to the 4 hearing
offices serving Congressman Gilchrest’s District, 25 we could not be certain that we were
provided with all the complaints for this period.

We reviewed the process for tracking Unfair Treatment Complaints at Region III’s 26
Office of the Regional Chief ALJ and found the office had its own control system to track
complaints. However, this regional system did not electronically interface with OCALJ’s
system. According to the regional staff, they confer weekly with DQS regarding their
ongoing investigations into Unfair Treatment Complaints. However, we reviewed a list
of 20 Unfair Treatment Complaints from the region’s control system for the hearing
offices in Congressman Gilchrest’s District and found 5 Unfair Treatment Complaints
that were in the Region’s control system but not on OCALJ’s list. OCALJ staff informed
us that two of these should have been included as part of their files. We could not get
adequate clarification from ODAR regarding the other three Unfair Treatment
Complaints and could not determine why they were not on OCALJ’s list.

The lack of a central control for tracking and resolving these complaints has been a
longstanding concern. In a 2002 report, 27 the Government Accountability Office (GAO)
recommended that SSA (1) adopt a method for summarizing key information on each
ALJ complaint, including the type of allegation; (2) place the complaint information in an
electronic format; (3) periodically analyze this information and report the results to the
Commissioner; and (4) develop necessary action plans. While SSA concurred with
GAO’s findings, we found no evidence the Agency took timely action on these
recommendations. ODAR management told us that DQS is taking steps to create a
system of records that will lead to the development of an electronic database to track
relevant trends.

Acknowledging Receipt of Complaints

SSA had informed the public that parties filing complaints will be promptly notified about
the receipt of their complaint as well as the subsequent results of the investigation. 28 Of
the 20 Unfair Treatment Complaint folders we reviewed, we found that 13 were sent as

24
     In fact, one complaint was related to late CY 2006 and another to early CY 2008.

25
   Of the 20 complaints, 11 related to the Dover Hearing Office, 5 related to the Washington, DC Hearing
Office, and the Baltimore and Norfolk hearing offices each had 2 complaints. See Appendix I for
information on these complaints.
26
     Region III includes Delaware, Maryland, Pennsylvania, Virginia, Washington, DC, and West Virginia.

27
  Government Accountability Office, SSA Disability Decision Making: Additional Measures Would
Enhance Agency’s Ability to Determine Whether Racial Bias Exists (GAO-02-831), September 2002.
28
  In the updated version of the website, the word “promptly” was removed in relation to OCALJ’s
response time to complaints.


Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                                       11
part of an appeal to the AC. Per AC policy, claimants are informed about the receipt of
the complaint in a notice from the AC. Of the seven remaining complaints, five had
acknowledgment letters in their files, and the median processing time from receipt of
complaint to its acknowledgment was 60 days. The remaining two files had a complaint
letter but no acknowledgment letter. ODAR informed us that one acknowledgment letter
had been sent after we were provided with our data. Congressman Gilchrest forwarded
the complaint in question July 2007, and the acknowledgment letter provided to us by
ODAR was sent in April 2008, approximately 9 months after the original complaint.

Unfair Treatment Complaint Public Material

SSA’s website instructs individuals with complaints about the hearing process to write a
letter to the Agency (Appendix E provides a copy of the updated information from the
website). However, at the time of our review, the information on this site had not been
updated since 2004. As a result, instead of listing ODAR, the site was still using the
former name—the “Office of Hearings and Appeals.” SSA further instructed the
claimant to send a letter to the Office of Special Counsel if they believed they were not
getting an adequate response from OCALJ. However, the Office of Special Counsel
had not existed since 2003. According to ODAR’s mailroom supervisor, all mail
addressed to the Office of Special Counsel was opened and reviewed, and the Unfair
Treatment Complaint letters were forwarded to OCALJ.

ODAR staff told us posters in hearing office reception areas contained information on
how to file Unfair Treatment Complaints. However, in our visits to two hearing offices in
Region III we did not see these posters in the reception areas. ODAR staff told us they
were aware that SSA’s website and its hearing office posters had out-of-date
information. As a result, the website was updated in August 2008. According to ODAR,
updated posters were also being distributed to all hearing and regional offices.

Comments from Law Firms

We interviewed attorneys at three law firms representing individuals in the
Congressman’s district who filed complaints with ODAR regarding the Dover Hearing
Office. We found that they either had problems with the Unfair Treatment Complaint
process or were not confident about how it worked. An attorney from one law firm
stated that one of his claimants had used the Unfair Treatment Complaint process, but
he never received an acknowledgment letter nor was he informed of the outcome of the
complaint. As a result, the attorney decided the process was not effective. An attorney
from a different law firm only filed requests for appeals to the AC because he said the
Unfair Treatment Complaint process was ineffective. In addition, he sent a letter to
Congressman Gilchrest’s office noting several claimants’ complaints.




Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                    12
Commissioner Initiative to Improve the Process

ODAR management said the Agency is committed to improving the Unfair Treatment
Complaint process and implementing the Commissioner’s initiative in this area. As
noted earlier, steps are being taken to better track complaint processing, the Unfair
Treatment Complaint website was recently updated, and new posters have been
created for the hearing offices. According to ODAR management, staffing has also
been increased in DQS to address the growing workload of Unfair Treatment
Complaints and related matters. In addition, an inter-component workgroup was
established to update and finalize the Unfair Treatment Complaint regulations. 29




29
  The parties involved include OCALJ as well as the Offices of General Counsel, Appellate Operations,
and Labor Management and Employee Relations.


Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                                     13
                                                                  Conclusions
For more than 2 years ODAR has been aware of allegations related to the Dover
Hearing Office. While it appears that some of these cases have undergone subsequent
review by ODAR, other allegations remain outstanding and await review. We believe
ODAR had enough facts from the correspondence to provide, at a minimum, status
information to Congressman Gilchrist. Of the 49 allegations we examined, 43 of the
claimants had requested new hearings, submitted their cases to the AC, or were
pursing remedy through the Federal courts. We understand that about 150 additional
allegations related to the Dover Hearing Office may also be awaiting resolution.

While ODAR reviewed the performance of the Dover Hearing Office and did not find any
issues, we believe ODAR needs to ensure these allegations are timely reviewed by the
AC or the Unfair Treatment Complaint process. To assist with this process, we have
shared information related to the 49 claims with ODAR.

Finally, we found that ODAR did not have a centralized electronic database to track
Unfair Treatment Complaints and, as a result, lacks an easy means to determine
relevant trends, such as repeated bias complaints associated with an ALJ. Moreover,
until recently, public information regarding the complaint process was inaccurate and
not always posted at hearing offices.

The Commissioner and ODAR have stated the Agency is committed to improving the
Unfair Treatment Complaint process and a number of improvements have been made
or are underway. ODAR needs to ensure that continued improvements to the Unfair
Treatment Complaint process allow the Agency to appropriately track pending and
completed reviews, timely notify parties about the status of their complaints, and provide
the public with accurate information on how to file a complaint.




Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                     14
                                            Appendices




Customer Service Issues at the Dover Hearing Office (A-12-08-28080)
                                                                       Appendix A

Acronyms
    AC                  Appeals Council

    ALJ                 Administrative Law Judge

    CPAB                Congressional and Public Affairs Branch

    CPMS                Case Processing and Management System

    CY                  Calendar Year

    DEO                 Division of Executive Operations

    DQS                 Division of Quality Services

    ECB                 Executive Communications Branch

    FY                  Fiscal Year

    GAO                 Government Accountability Office

    OAO                 Office of Appellate Operations

    OCALJ               Office of the Chief Administrative Law Judge

    ODAR                Office of Disability Adjudication and Review

    OQP                 Office of Quality Performance

    RCALJ               Regional Chief Administrative Law Judge

    SSA                 Social Security Administration
    SSN                 Social Security Number

    Form
    HA-520              Request for Review of Decision/Order




Customer Service Issues at the Dover Hearing Office (A-12-08-28080)
                                                                      Appendix B

Scope and Methodology
To complete our objective, we:

     Reviewed applicable Federal laws and regulations, as well as Social Security
      Administration (SSA) policies and procedures pertaining to SSA’s disability review
      process.

     Reviewed Office of Disability Adjudication and Review (ODAR) criteria and
      procedures for processing Unfair Hearing Allegations in the Appeals Council and
      complaints via the Public Administrative Law Judge Misconduct Complaint
      Process.

     Reviewed workload data, including remand statistics, for the hearing offices in
      Norfolk, Virginia; Washington DC; Dover, Delaware; and Baltimore, Maryland, for
      2005, 2006 and 2007.

     Analyzed the Unfair Treatment Complaints in the four hearing offices for Calendar
      Year 2007.

     Compiled, reviewed and summarized constituent complaints from source
      documents provided by the Congressman’s office.

     Reviewed personnel actions that had been taken against administrative law
      judges (ALJ) in the four hearing offices for the previous 3 years.

     Reviewed congressional inquiries and correspondence pertaining to issues in the
      four hearing offices for the previous 3 years.

     Reviewed incident reports and/or harassment complaints filed in the four hearing
      offices in the previous 3 years.

     Interviewed staff and senior management in the Office of the Chief ALJ, the Office
      of the Regional Chief ALJ, Hearing Office Directors in the four hearing offices and
      the Hearing Office Chief Administrative Law Judge in the Dover Hearing Office.

     Interviewed attorneys from law firms who represented Congressman Gilchrest’s
      constituents in hearings before ALJs in the Dover Hearing Office.

The SSA entity reviewed was ODAR under the Deputy Commissioner for Disability
Adjudication and Review. The electronic data used for this audit were sufficiently
reliable to meet our audit objectives. Our tests of internal controls were limited to
gaining an understanding of the laws, regulations and policies that govern the
processing of claimant complaints and performing the audit steps identified above. We


Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                  B-1
conducted our audit from December 2007 to September 2008 in Falls Church, Virginia.
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                B-2
                                                                                   Appendix C

Workload Statistics for Hearing Offices Serving
Congressman Gilchrest’s Constituents
Using Case Processing and Management System data for Fiscal Years (FY) 2005
through 2007, we analyzed workload statistics for the four hearing offices serving
Congressman Gilchrest’s constituents. 1 The four hearing offices are located in
Baltimore, Maryland; Dover, Delaware; Norfolk, Virginia; and Washington, DC.
According to Congressman Gilchrest’s staff, the majority of the Congressman’s
constituents attend hearings at the Dover, Delaware office.

              Table C-1: Eastern Maryland Hearing Offices Dispositions
                           and Average Processing Time
                        FY 2005                        FY 2006                        FY 2007
                              Average                        Average                        Average
                             Processing                     Processing                     Processing
  Hearing                      Time in                        Time in                        Time in
   Office      Dispositions     Days          Dispositions     Days          Dispositions     Days
Dover             1,768          306             2,009          459             1,620          490
Baltimore         5,231          388             5,543          484             5,575          560
Washington,
DC                 3,056           463            3,496           513            2,791           502
Norfolk            2,989           393            3,373           420            3,005           379

                   Table C-2: Number of ALJs in each Hearing Office
                                    FY 2005                 FY 2006               FY 2007
          Hearing Office        Number of ALJs         Number of ALJs         Number of ALJs
       Dover                            5                      4                       3
       Baltimore                        11                    12                     11
       Washington, DC                   7                      6                       6
       Norfolk                          6                      7                       6
      Note: Our ALJ counts were determined by the number of ALJs making decisions on cases
      during the time period in question. As a result, our count may vary with the Office of Disability
      Adjudication and Review’s staffing reports, which determine ALJ counts at a specific point in time.

                  Table C-3: Dover Hearing Office Disposition Results
                          FY 2005                         FY 2006                        FY 2007
  Decision        Title II      Title XVI         Title II      Title XVI        Title II      Title XVI
Favorable          49%            47%              50%            38%             51%            44%
Unfavorable        35%            35%              35%            40%             32%            37%
Dismissals         13%            19%              15%            22%             17%            20%




1
 Congressman Gilchrest represents the First Congressional District of Maryland, which encompasses the
entire Eastern Shore of Maryland, as well as parts of Anne Arundel, Baltimore and Harford Counties.


Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                                    C-1
               Table C-4: Baltimore Hearing Office Disposition Results
                         FY 2005                     FY 2006                    FY 2007
  Decision       Title II      Title XVI     Title II      Title XVI    Title II      Title XVI
Favorable         74%            65%          71%            63%         67%            60%
Unfavorable       13%            14%          12%            14%         13%            16%
Dismissals        14%            21%          17%            23%         20%            25%

           Table C-5: Washington, DC Hearing Office Disposition Results
                         FY 2005                     FY 2006                    FY 2007
  Decision       Title II      Title XVI     Title II      Title XVI    Title II      Title XVI
Favorable         63%            55%          68%            61%         60%            56%
Unfavorable       27%            27%          19%            21%         25%            25%
Dismissals        10%            19%          13%            18%         16%            19%

                Table C-6: Norfolk Hearing Office Disposition Results
                         FY 2005                     FY 2006                    FY 2007
  Decision       Title II      Title XVI     Title II      Title XVI    Title II      Title XVI
Favorable         51%            42%          49%            37%         47%            39%
Unfavorable       37%            44%          38%            44%         40%            45%
Dismissals        12%            14%          13%            19%         13%            16%

                Table C-7: Appeals Council Remands as a Percent of
                           Total Dispositions for FY 2007
                                                                        Remands as a Percent
    Hearing Office       Number of Remands         Total Dispositions      of Dispositions
Dover                           107                       1,646                 6.50%
Baltimore                       211                       5,486                 3.85%
Washington, DC                  167                       2,796                 5.97%
Norfolk                          95                       2,957                 3.21%

                       Table C-8: Court Remands as a Percent of
                             Total Dispositions for FY 2007
                                                                        Remands as a Percent
    Hearing Office       Number of Remands         Total Dispositions      of Dispositions
Dover                           62                        1,646                 3.77%
Baltimore                       73                        5,486                 1.33%
Washington, DC                  117                       2,796                 4.18%
Norfolk                         14                        2,957                 0.47%




Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                         C-2
                                                                                                Appendix D
Unfair Treatment Complaint Process
   Regional Office (RO)            Office of the Chief Administrative Law Judge        Appeals Council (AC) decides
       investigates                  (OCALJ) monitors complaints to identify           if hearing was unfair because
  ALJ misconduct issues.               occurrences of bias and misconduct.                  of misconduct or bias.

               RO                                          Claimant                             Office of Appellate
                                                           Complaint                            Operations (OAO)
                                         Coordinate                      Coordinate
                                          complaint                       complaint
                                         information                     information
    Begins investigation when                                                                 The AC considers the
    the complaint is received                                OCALJ                          complaint in conjunction
                                                         notified of all                     with the existing record,
                                                                                            hearing testimony (if any),
                                                        complaints, and                        and ALJ decision or
   Informs Administrative Law                               sends an                            dismissal order in
      Judge (ALJ) about the                            acknowledgement                       determining whether the
     complaint after hearing                           letter to the party                  request for review should
        decision is issued                                 making the                               be granted
                                                           complaint.
       Informs OCALJ of the
        investigation results,                           OCALJ sends                            AC addresses the
    provides conclusion as to                             complaint to                         complaint in its final
     findings of investigation,                        Regional Office to                          document
    and recommends action or                                 begin
       no action is necessary
                                                         investigation.
                                                                                                 OAO provides a
            OCALJ                                                                                memorandum to
         communicates                                                                         OCALJ with a copy of
          with the RO                         OCALJ determines appropriate                     pertinent documents
        concurrence with                                                                      and a copy of the AC’s
         recommended
                                                   action on misconduct
                                                                                              final action document
             action                               regarding ALJ after RO                          addressing the
                                                   investigation and AC                              complaint.
                                               consideration (and considers
   RO performs action only if it                recommendation from RO)
    is counseling and informs
      OCALJ action has been
    taken. If action to be taken
     is more than counseling,
       then Chief ALJ takes
        appropriate action                     Informs claimant of the results




Customer Service Issues at the Dover Hearing Office (A-12-08-28080)
                                                                      Appendix E
How to File an Unfair Treatment Complaint




Customer Service Issues at the Dover Hearing Office (A-12-08-28080)
                                                                                   Appendix F

Congressional Response Process at the Office
of Disability Adjudication and Review
The Office of Disability Adjudication and Review (ODAR) has two Headquarters
components that respond to congressional inquiries. These components are in the
Division of Executive Operations (DEO), which serves as the liaison and the primary
point of coordination for the exchange of information and direction between the Deputy
Commissioner and other ODAR executives.

THE EXECUTIVE COMMUNICATIONS BRANCH

The Executive Communications Branch (ECB) uses the standards in the Congressional
Inquiries Guide, a document issued by the Office of the Deputy Commissioner for
Legislation and Congressional Affairs. ECB responds to congressional inquiries on
behalf of the Commissioner and Deputy Commissioner. ECB does not respond to
Unfair Treatment Complaints but instead refers them to the Office of the Chief
Administrative Law Judge (OCALJ). The ECB provides an interim response to the
congressional office if a final reply cannot be made within 12 working days after the
receipt of an inquiry. Generally, subsequent interim responses (providing up-to-date
status) are sent every 22 workdays until final resolution. When ECB expects it will be
some time before there will be any change in status, it will provide an interim response
indicating what stage of the process the claim is in (for example, pending in the Appeals
Council) and explain that the office will notify the congressional office once subsequent
action has been taken.

CONGRESSIONAL AND PUBLIC AFFAIRS BRANCH

The Congressional and Public Affairs Branch (CPAB) procedures require that a
response to a new inquiry be provided to congressional staff within 5 1 working days
from the date the inquiry is received. A 20-day due date will be assigned if the last
response was a routine interim reply. A 90-day due date will be assigned if the last
response was a substantial interim reply. According to CPAB staff, between January
and June 2008, CPAB processed 1,874 written responses and 67,018 telephone
inquiries.

OFFICE OF THE CHIEF ADMINISTRATIVE LAW JUDGE

All Congressional inquiries that involve an Unfair Treatment Complaint are referred to
OCALJ. OCALJ acknowledges receipt of the complaint and notifies the congressional
office of the result.
1
 During the first quarter of 2008, following our audit review period, CPAB increased the amount of time a
new inquiry should be provided to congressional staff from 3 to 5 working days.


Customer Service Issues at the Dover Hearing Office (A-12-08-28080)
                                                                                   Appendix G

Selected Correspondence Between
Congressman Gilchrest and the Office of
Disability Adjudication and Review1
An August 26, 2006 letter from Congressman Gilchrest’s office to the Regional Chief
Administrative Law Judge (RCALJ) in Region III 2 expressed concerns about procedures
for hearing notifications, scheduling delays, the integrity of the hearings process,
response time on inquiries and allegations of retaliation against claimants for making
such inquiries

In an October 20, 2006 letter to the Congressman, the Deputy Commissioner for
Disability Adjudication and Review noted that new procedures were being implemented
to improve the disability determination process. The letter also stated, “I have directed
members of my management team in the Dover Office of Disability Adjudication and
Review to respond to the serious matters involving poor service.”

On November 9, 2006, the Hearing Office Chief ALJ (HOCALJ) wrote to Congressman
Gilchrest addressing some of the timeliness issues and noting that “without having
case-specific information (Social Security Number or names), we are not able to provide
a more detailed response.”

On March 13, 2007, Congressman Gilchrest noted “The sheer volume of the complaint
compilation now exceeds assessments of more than two-hundred disability cases” and
noted he had received complaints from five law firms. The letter also noted concerns
about a “…pattern of bias demonstrated in these cases reflects disdain for the
permanently disabled on a scale that borders if not exceeds the federal law on
discrimination against a protected class of people.…” Congressman Gilchrest also
requested a formal investigation of these complaints.

On March 29, 2007, the RCALJ for Region III wrote to Congressmen Gilchrest
requesting specific information on the cases “so that we have all of the facts and can
fully address each of [the] concerns.”

On December 12, 2007, the Congressman’s office sent the names and Social Security
numbers (SSN) of 111 constituents with complaints about their hearings at the Dover
Hearing Office. The list was broken down into three listings—one for each of three

1
 This is not an exhaustive list of all correspondence that took place between Congressman Gilchrest’s
office and OCALJ, which included other e-mails, additional written correspondence, and phone
conversations.
2
    Region III includes Delaware, Maryland, Pennsylvania, Virginia, Washington, DC, and West Virginia.


Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                                      G-1
ALJs in the hearing office. The largest group involved 61 cases related to the HOCALJ.
Each listing contained the claimant’s name, SSN, claimant’s representative, decision
date, and hearing decision.

On December 19, 2007, the RCALJ wrote to Congressmen Gilchrest noting “…we need
to have a specific allegation tied to each case.” The RCALJ also noted that the Office of
Disability Adjudication and Review (ODAR) had received more information on two of the
cases and an investigation would take place.

On April 1, 2008, the Chief ALJ wrote to Congressman Gilchrest and noted “Because of
the number of general complaints we have received from your office about the Dover
Hearing Office, we are in the process of conducting an audit of sample decisions issued
by the Dover Hearing Office. This review will provide us with an objective assessment
of the quality of the work in the Dover hearing Office…If allegations are found to be
substantiated, appropriate action will be taken.”

On April 7, 2008, a meeting was held between Congressman Gilchrest, other
congressional staff, claimant representative attorneys, and the RCALJ. At the meeting
ODAR advised the representatives and the congressional staff to send the complaints
to them so that they could be reviewed by ODAR.




Customer Service Issues at the Dover Hearing Office (A-12-08-28080)                  G-2
                                                                               Appendix H

Status of 111 Hearing Claims Referred by
Congressman Gilchrest’s Office
Congressman Gilchrest’s office sent the Office of Disability Adjudication and Review (ODAR)
a list of 111 alleged complaints in December 2007 identifying the claimants’ names, Social
Security numbers and the administrative law judges (ALJ) who presided at the hearings.
Although the claimants did not describe in their own words how they were treated unfairly,
ODAR received sufficient information in each ALJ complaint for ODAR staff to query their
systems to determine whether appeals had been filed. Many of these complaints have
undergone further review, as shown below, demonstrating that a more detailed response
could have been provided to the Congressman to indicate the status of the claims in
question.

We found that as of September 2008, 53 of these claims had been appealed or a second
request for hearing had been filed. Another 56 claims did not appear to have gone through
additional review and 2 claims were not in the Case Processing and Management System.
We also found that of the 53 cases undergoing additional review, 16 decisions were
favorable, 19 decisions were unfavorable, and 18 were pending a decision.

                         Table H-1: Status of 111 Constituent Claims
                                       (As of September 2008)
                 No New        Appeals
                Action on      Council        Court      2nd Hearing   No Records
                  Case         Review        Remand        Request       found      Total
Number of
                   56             36             4            13           2        111
Claims




Customer Service Issues at the Dover Hearing Office (A-12-08-28080)
                                                                                            Appendix I

Unfair Treatment Complaints Provided by the
Office of the Chief Administrative Law Judge
The Office of the Chief Administrative Law Judge (OCALJ) provided us with 20 Unfair
Treatment Complaints received in Calendar Year (CY) 2007 1 and related to the 4 hearing
offices serving Congressman Gilchrest’s district. 2 We found the majority of the complaints
related to the Dover Hearing Office.

          Figure I-1: CY 2007 Unfair Treatment Complaints by Hearing Office

                                           10%
                                    10%



                                                                    55%
                                  25%


                        Dover     Washington, DC        Norfolk     Baltimore




At the time of our review, 13 of these complaints had been closed and 7 were still pending.
ODAR determined all 13 of the closed complaints to be unsubstantiated. We also found that
it took ODAR an average of 5 months to review the 13 closed complaints, while the 7 pending
complaints had been awaiting action for an average of 8 months. Moreover, 17 of the
20 individuals filing the complaints, or 85 percent, had also appealed their cases to the
Appeals Council.




1
    In fact, one complaint was related to late CY 2006 and another to early CY 2008.
2
 The four hearing offices are located in Baltimore, Maryland; Dover, Delaware; Norfolk, Virginia; and
Washington, DC.




Customer Service Issues at the Dover Hearing Office (A-12-08-28080)
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
